Audit Report




OIG-12-039
SAFETY AND SOUNDESS: Material Loss Review of Riverside
National Bank of Florida
January 31, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

  Causes of Riverside’s Failure ......................................................................         3
    High-Risk, Complex Investments Concentrated in Real Estate .....................                           3
    Risky Lending Concentrations .................................................................             4
    Riverside’s Senior Management Had Broad Authority… .............................                           5
    Riverside’s Board of Directors Failed to Maintain Effective Internal Control...                            6

  OCC’s Supervision of Riverside. ..................................................................           7
    OCC’s 2006 Examination Did Not Adequately Address Riverside’s Existing
       and Growing Risk .............................................................................          8
    OCC Did Not Take Enforcement Action After Its 2007 Examination
       Identified Repeat Deficiencies ............................................................             9
    OCC Guidance for Investment Securities Has Been Improved
       but Does Not Quantitatively Limit Mortgage-Related Securities ..............                          10
    Special Supervision Division’s Use of Enforcement Action and Prompt
       Corrective Action Was Appropriate ....................................................                12

  Other Matters .......................................................................................... 13
     Regulatory Capital Treatment of Unrealized Losses on Available-for-Sale Debt
          Securities Should Be Reevaluated..................................................... 13
     Riverside Hindered OCC’s Examination Process ........................................ 14

  Recommendations .....................................................................................      15

Appendices

  Appendix    1:      Objectives, Scope, and Methodology ....................................                18
  Appendix    2:      Background........................................................................     21
  Appendix    3:      Management Response .......................................................            23
  Appendix    4:      Major Contributors to This Report .........................................            25
  Appendix    5:      Report Distribution ..............................................................     26

Abbreviations

  CDO                     collateralized debt obligation
  CEO                     chief executive officer
  CFO                     chief financial officer
  FDIC                    Federal Deposit Insurance Corporation
  MRA                     matter requiring attention

                      Material Loss Review of Riverside National Bank of Florida                           Page i
                      (OIG-12-039)
NRSRO       nationally recognized statistical rating organization
OCC         Office of the Comptroller of the Currency
ROE         report of examination
TruPS       trust preferred security




        Material Loss Review of Riverside National Bank of Florida   Page ii
        (OIG-12-039)
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General




                        January 31, 2012

                        John G. Walsh
                        Acting Comptroller of the Currency

                        This report presents the results of our material loss review of the
                        failure of Riverside National Bank of Florida (Riverside), of Fort Pierce,
                        Florida, and of the Office of the Comptroller of the Currency’s (OCC)
                        supervision of the institution. OCC closed Riverside and appointed the
                        Federal Deposit Insurance Corporation (FDIC) as receiver on April 16,
                        2010. This review is mandated by section 38(k) of the Federal Deposit
                        Insurance Act because of the magnitude of Riverside’s estimated loss
                        to the Deposit Insurance Fund (DIF). 1,2 As of December 31, 2011,
                        FDIC estimated that the loss would be $240.9 million. FDIC also
                        estimated that Riverside’s failure resulted in a loss of $8.3 million to
                        FDIC’s Transaction Account Guarantee Program.

                        Our objectives were to determine the causes of Riverside’s failure and
                        associated impact to the DIF; assess OCC’s supervision of Riverside,
                        including implementation of the prompt corrective action (PCA)
                        provisions of section 38; and make recommendations for preventing
                        such a loss in the future. To accomplish these objectives, we reviewed
                        the supervisory files and interviewed officials at OCC and FDIC. We
                        conducted our fieldwork primarily from June 2010 through October
                        2010. Appendix 1 contains a more detailed description of our review
                        objectives, scope, and methodology. Appendix 2 contains background



1
  At the time of Riverside’s failure, section 38(k) defined a loss as material if it exceeded the greater of $25
million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k) defines a loss as
material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for calendar years 2012
and 2013, and $50 million for calendar years 2014 and thereafter (with a provision that the threshold can
be raised temporarily to $75 million if certain conditions are met).
2
  Definitions of certain terms, which are underlined where first used in this report, are available in Treasury
Office of Inspector General (OIG) Safety and Soundness: Material Loss Review Glossary, OIG-11-065
(Apr. 11, 2011). That document is available on the OIG’s website at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.

                        Material Loss Review of Riverside National Bank of Florida                    Page 1
                        (OIG-12-039)
                       information on Riverside’s history and OCC’s assessment fees and
                       examination hours.

                       In brief, the primary cause of Riverside‘s failure was the bank’s
                       inability to manage its high-risk portfolios of (1) complex investments
                       and (2) retail loans concentrated in an area where economic health
                       was very much dependent on the strength of the local real estate
                       industry. This resulted in significant losses on securities and loans and
                       the ensuing erosion of earnings and capital significantly impaired
                       Riverside’s ability to sustain its business strategy. Regarding
                       supervision, OCC should have taken enforcement action against
                       Riverside after its 2007 examination of the bank. OCC’s supervisory
                       response in 2006 was too focused on the bank’s financial
                       performance rather than level of risk of its assets. OCC’s guidance for
                       investment securities has improved but does not quantitatively limit
                       investments in mortgage-related securities. OCC’s Special Supervision
                       Division took appropriate enforcement action and PCA.

                       In other matters, we noted that Riverside’s Tier 1 capital in its call
                       reports consisted entirely or almost entirely of unrealized losses on
                       available-for-sale debt securities during 2009 and 2010. This was
                       because of the regulatory capital treatment of unrealized gains and
                       losses on such securities. 3 We also noted that OCC examiners found it
                       difficult to obtain from Riverside details on its transactions with
                       affiliates and accurate information regarding possible insider trading by
                       Riverside’s CEO.

                       We recommend that the Comptroller of the Currency determine
                       whether a limit, such as a specific percentage of capital, should be
                       placed on the amount national banks can invest in complex mortgage-
                       related securities before they must obtain OCC approval. We also
                       recommend that OCC work with its regulatory partners to reevaluate
                       the regulatory capital treatment of unrealized losses on available-for-
                       sale debt securities in determining Tier 1 capital.

                       In a written response, which is included in appendix 3, OCC
                       determined that a specific limit on complex mortgage-related securities
                       is not necessary. While we accept OCC’s determination, we believe
                       OCC should periodically revisit the issue of setting specific limits if the

3
 Unrealized gains and losses result from fluctuations in fair value compared to the net carrying value of
available-for-sale securities purchased by an entity with the intent and ability to hold such securities.

                       Material Loss Review of Riverside National Bank of Florida                  Page 2
                       (OIG-12-039)
                      level of these securities in the national banking system rises in the
                      future. OCC agreed to work with its regulatory partners to reconsider
                      the way that unrealized gains and losses on available-for-sale debt
                      securities are incorporated into the regulatory capital rules. We
                      consider the planned action to be responsive to our recommendation.
                      However, OCC will need to record the planned completion date for
                      taking action in the Joint Audit Management Enterprise System
                      (JAMES), the Department of the Treasury’s audit recommendation
                      tracking system.

                      Certain matters related to Riverside’s operations are under review by
                      the Treasury Inspector General’s Office of Investigations and other
                      agencies. We also provided the Treasury Inspector General’s Office of
                      Investigations with information obtained during our review related to
                      other possible regulatory violations.

Causes of Riverside’s Failure
                      Riverside grew rapidly, acquiring significant high-risk portfolios of
                      complex investments and retail loans concentrated in an area where
                      economic health was very much dependent on the strength of the
                      local real estate industry. 4 However, it lacked effective policies and
                      controls to manage the risks associated with these assets.

                      High-Risk, Complex Investments Concentrated in Real Estate

                      In 2005, Riverside began acquiring collateralized debt obligations
                      (CDOs) linked to commercial real estate. 5 Riverside primarily
                      accumulated a type of CDO backed by trust preferred securities
                      (TruPS) which became popular when regulators began permitting
                      banks to treat them as regulatory capital in 1996. In addition,
                      Riverside purchased TruPS separately. From 2005 to 2007, Riverside
                      purchased more than 20 CDOs backed by TruPS or other collateral
                      and more than 30 TruPS. By March 2008, Riverside’s portfolio of
                      CDOs and TruPS amounted to more than $300 million, representing
                      nearly 20 percent of the bank’s total investment portfolio. The high
                      volume of CDOs held by Riverside was unusual for a community bank.

4
 This growth was funded with higher-cost, wholesale funding sources including brokered deposits.
5
 A CDO is a type of mortgage-backed security that represents claims to cash flows from obligations such
as mortgages, loans, and bonds. CDOs are thinly traded; therefore, their valuations typically come from
modeling instead of actual trades.

                      Material Loss Review of Riverside National Bank of Florida               Page 3
                      (OIG-12-039)
                       In addition, Riverside’s holdings of CDOs were so substantial that
                       when the bank failed, the transfer of its investments to FDIC nearly
                       doubled the value of FDIC’s holdings of CDOs.

                       Riverside’s investment policy was inadequate in regard to the initial
                       evaluation and monitoring of the risk of the bank’s complex
                       investments. The policy required minimal evaluation of securities prior
                       to purchase. Riverside relied almost entirely on the initial investment
                       grade ratings 6 from nationally recognized statistical rating
                       organizations (NRSRO) 7 to justify its purchase of securities. The policy
                       also lacked triggers for reevaluating the quality of investments and did
                       not define exit strategies. From 2006 through 2009, NRSROs
                       downgraded Riverside’s securities an average of 11 rating levels. As a
                       result, Riverside’s adversely classified investments, most of which
                       were CDOs, increased dramatically, rising from $44 million—
                       representing 13 percent of Tier 1 capital—in early 2008, to $168
                       million—representing 97 percent of Tier 1 capital—in early 2009, and
                       to $597 million—representing 352 percent of Tier 1 capital—by early
                       2010.

                       In the end, the downgrades in Riverside’s investment portfolio resulted
                       in unsustainable losses for the bank. By 2008, nearly half of
                       Riverside’s total losses of $139 million consisted of losses on the
                       bank’s investments. In addition, Riverside’s unrealized losses on
                       securities exceeded $100 million in both 2008 and 2009. By the end
                       of 2009, the value of Riverside’s CDO portfolio had fallen by more
                       than 60 percent, and the value of some of the CDOs had declined by
                       more than 90 percent. Eventually, the bank was unable to sustain the
                       combined effects of realized losses and erosion of capital.

                       Risky Lending Concentrations

                       Riverside’s loan portfolio consisted of retail lending (consumer, home
                       equity, and residential mortgage loans) and commercial/commercial
                       real estate lending. Riverside’s loan portfolio was dependent on the
                       strength of the real estate market in its lending area and was
                       significantly impacted by the market downturn.

6
  12 C.F.R. 1.2(d), Investment Securities Definitions, states that an investment-grade security is a security
rated in one of the four highest credit rating categories of AAA, AA, A, and BBB.
7
  NRSROs include credit rating agencies such as Moody’s Investors Service Inc. and Standard & Poor’s,
which issue credit ratings that may be used for certain regulatory purposes.

                       Material Loss Review of Riverside National Bank of Florida                   Page 4
                       (OIG-12-039)
                      From 2005 through the bank’s failure, retail loans represented at least
                      60 percent of Riverside’s total loan portfolio and as much as 500
                      percent of its capital. The type and quality of the loans in Riverside’s
                      retail portfolio, particularly indirect automobile loans with subprime
                      characteristics, contributed to the portfolio’s riskiness. 8 In this regard,
                      Riverside had concentrations of subprime automobile loans ranging
                      from 25 percent to 32 percent of Tier 1 capital plus allowance for loan
                      and lease losses from 2005 through 2008. These loans accounted for
                      the bank’s first loan losses, beginning in 2007. By 2010, Riverside’s
                      cumulative losses from indirect automobile loans exceeded $38
                      million, more than its losses from any other retail loan type.

                      The bank’s commercial real estate loans were also directly affected
                      when developers abandoned projects, jobs were lost and borrowers
                      were unable to generate sufficient income to service their loans. By
                      the end of 2009, Riverside sustained $170 million in direct loan losses
                      (including $92 million for retail loans alone) and $235 million in
                      provision expenses for impaired loans.

                      Riverside’s Senior Management Had Broad Authority

                      According to OCC examiners, Riverside’s chief executive officer (CEO)
                      operated largely autonomous of other members of the bank’s
                      management team and the board of directors. He was able to commit
                      the bank to transactions that exposed it to substantial losses and
                      reputation risk. The CEO also hired senior personnel whom he trusted
                      not to challenge his authority. The CEO gave Riverside’s chief financial
                      officer (CFO) sole authority for managing the bank’s investment
                      portfolio. Other members of the management team and the board
                      relied heavily on the CFO to direct the bank’s investment strategy. The
                      CFO, however, had experience only in typical community banks that
                      did not have extensive investment portfolios, and he had no
                      experience managing complex investments such as CDOs.

                      Riverside’s formal policies allowed the CFO to unilaterally direct the
                      bank to buy and sell securities until the portfolio represented 40
                      percent of the bank’s total assets. The bank’s finance committee did
                      reduce the limit to 35 percent in March 2007. However, in May 2007,
                      the CFO requested the limit be increased back to 40 percent and the

8
 For indirect automobile loans, a car dealership acts as an intermediary between the bank and the
purchaser.

                      Material Loss Review of Riverside National Bank of Florida                    Page 5
                      (OIG-12-039)
                        finance committee approved the change. In addition, the CFO
                        repeatedly and successfully pushed the board to either revise the
                        bank’s policies to allow for higher concentrations of riskier
                        investments or grant waivers for policy violations when they occurred.
                        For example, in May 2007, Riverside’s policy was that securities rated
                        BBB could not exceed 1.5 percent of total assets. When this limit was
                        exceeded, the CFO simply requested a policy waiver which the finance
                        committee granted.

                        Riverside’s Board of Directors Failed to Maintain Effective Internal
                        Control

                        In addition to the lax oversight of investment activities by its finance
                        committee, Riverside’s board did not act timely and appropriately to
                        maintain an effective control environment within the bank. The board
                        failed to address multiple internal control issues identified by the
                        bank’s internal auditors in 2007. 9 The board did not act until OCC
                        formally documented these issues as matters requiring attention
                        (MRA) 10 and legal violations in the 2009 report of examination (ROE).

                        For example, in 2006, OCC alerted Riverside’s board of the need to
                        develop procedures to better handle the recording of insider loans that
                        were secured by stock of the bank’s holding company. The board did
                        not address OCC’s concern. It continued approving such loans until
                        2008 and then reclassified the loans as commercial loans to
                        circumvent the need for improved procedures.

                        Several board members and their families had taken loans from
                        Riverside that were collateralized by the holding company’s stock and
                        serviced primarily by dividends from the stock. When Riverside began
                        experiencing financial difficulty and the holding company’s stock price
                        fell, the bank charged off substantially all of the remaining loans to
                        board members and their families, causing millions of dollars in losses
                        to the bank.


9
  The internal control issues identified by the bank’s internal auditors were (1) significantly aged items on
the critical loan report (most over 120 days, and some over 360 days), (2) policy exceptions without
required approval, (3) violations of the Truth in Lending Act, and (4) loan files missing required
documentation or updated information.
10
   OCC uses MRAs to communicate to banks issues that deviate from sound banking principles, internal
controls, or risk management. If not corrected, the issues outlined in an MRA could result in continuing
financial deterioration.

                        Material Loss Review of Riverside National Bank of Florida                    Page 6
                        (OIG-12-039)
OCC’s Supervision of Riverside
                 OCC’s supervision of Riverside did not prevent a loss to the DIF. In
                 2006, OCC was focused on the bank’s positive financial performance
                 instead of the existing and growing risk in its investment and loan
                 portfolios. In this regard, we noted that OCC guidance was insufficient
                 to identify the concentration risk represented by the significant volume
                 of loans and investments that were dependent on the real estate
                 industry. In addition, we found that OCC, according to its own
                 guidance, should have issued an enforcement action after its 2007
                 examination of the bank.

                 The following table summarizes OCC’s examinations of Riverside and
                 related enforcement actions from 2005 to 2010. Generally, MRAs
                 represent the most significant items reported in ROEs requiring
                 corrective action.

       Table 1. Summary of OCC’s Riverside Examinations and Enforcement Actions

                                                            Examination Results
       Date                                                   Number of
       started/type    Assets        CAMELS          Number   recommendations
       of exam         (billions)a   rating          of MRAs or suggestions       Enforcement actions
       4/18/2005
       Full-scope         $2.4       2/122122            1                13      None
       examination
       4/4/2006
       Full-scope         $3.5       2/212212            0                13      None
       examination
       4/16/2007
       Full-scope         $4.4       2/222222            4                    9   None
       examination
                                                                                  Individual minimum
                                                                                  capital ratio imposed
                                                                                  Oct. 16, 2008
                          $4.5       3/333322            4                    2
       4/21/2008                                                                  Formal agreement
       Full-scope                                                                 issued Oct. 28,
       examination                                                                2008
       10/ b/2008                                                                 None, formal
       Targeted           $4.0       3/333332            0                    0   agreement remained
       examination                                                                in effect
       4/9/2009                                                                   None, formal
       Targeted           $3.6       4/444432            0                    0   agreement remained
       examination                                                                in effect



                 Material Loss Review of Riverside National Bank of Florida                  Page 7
                 (OIG-12-039)
    Table 1. Summary of OCC’s Riverside Examinations and Enforcement Actions

                                                               Examination Results
    Date                                                         Number of
    started/type       Assets         CAMELS            Number   recommendations
    of exam            (billions)a    rating            of MRAs or suggestions       Enforcement actions
                 d
    4/13/2009                                                                        None, formal
    Full-scope            $3.6        5/555543              9                3       agreement remained
    examination                                                                      in effect
    9/14/2009d                                                                       Consent order
    Targeted              $3.5        5/c                   0                0       issued Nov. 10,
    examination                                                                      2009
Source: OCC supervisory documentation.
a
  Asset amounts are as of the immediately preceding quarter.
b
  Date was not specified in OCC’s documentation.
c
    CAMELS component rating was not specified in OCC’s documentation.
d
    Examination was directed by OCC’s Special Supervision Division.


                OCC’s 2006 Examination Did Not Adequately Address Riverside’s
                Existing and Growing Risk

                OCC’s supervisory response in 2006 was inadequate to address the
                existing and growing risk from Riverside’s loans and investments.
                There were strong indicators of high risk that we believe should have
                been addressed as MRAs in 2006. Both Riverside’s loan and
                investment portfolios were heavily tied to the real estate market. The
                retail loan portfolio included a large percentage of subprime loans with
                borrower repayment strongly dependent on the local real estate
                industry. The investment portfolio included large amounts of CDOs
                purchased in a short period of time. It was unusual for a community
                bank to be so heavily invested in CDOs. In addition, Riverside’s CFO
                unilaterally directed the purchases that resulted in this large volume of
                complex securities. According to OCC examiners, stronger action was
                not taken because OCC relied on the positive financial performance of
                Riverside’s loan and investment portfolios through 2006.

                OCC did not use MRAs in 2006 to address its multiple findings on
                deficiencies in Riverside’s loan portfolio management such as the risk
                associated with loans secured by Riverside stock. At March 31, 2006,
                Riverside had 172 loans with an outstanding balance of $24.1 million
                secured by Riverside stock with terms varying from 2 to 20 years. As
                previously mentioned, these loans were to Riverside board members
                and their families. In the 2006 ROE, OCC pointed out several risks
                with this type of loan. The risks included (1) the fact that Riverside

                Material Loss Review of Riverside National Bank of Florida                     Page 8
                (OIG-12-039)
had no policies or procedures regarding this type of loan, (2) some of
these loans were totally collateral dependent, and (3) the variance in
the rates and terms of the loan. In addition, OCC did not address the
risk associated with Riverside’s borrowers’ dependence on the local
real estate industry.

With regard to Riverside’s investment portfolio, OCC did not issue
MRAs relating to the high risk of purchasing large amounts of highly
complex securities including CDOs. OCC stated in the 2006 ROE that
the investment portfolio totaled about $1 billion as of December 2005,
which represented a nearly 90 percent increase from the previous
examination. From January 2005 to December 2006, Riverside’s
investment portfolio doubled in size from roughly $752 million to over
$1.5 billion. However, aside from noting the increase in size, OCC did
not address the increased risk in the investment portfolio in 2006. The
purchase of such a large volume of securities in such a short period of
time under the direction of a CFO inexperienced with complex
securities should have alerted OCC to the need for correction using an
MRA.

OCC personnel told us that (1) OCC raised only minor issues with
Riverside’s retail loan portfolio in 2006 because the portfolio
performed better than the retail loan portfolios of its peer banks;
(2) OCC did not perform detailed analysis on highly-rated investments
as the investments were performing well at the time; and
(3) performance indicators showed that a booming real estate market
still existed in 2006 and the bank’s adversely classified assets were
minimal. Nevertheless, we believe MRAs should have been used to
address the overall riskiness of the loan and investment portfolios.

OCC Did Not Take Enforcement Action After Its 2007 Examination
Identified Repeat Deficiencies

OCC should have issued an enforcement action after the full-scope
examination in 2007. In the 2005, 2006, and 2007 ROEs, OCC
repeatedly identified deficiencies with respect to inappropriate lines of
reporting and loan portfolio management. OCC guidance states that a
formal enforcement action is appropriate, regardless of a bank’s
capital level and composite CAMELS rating, when the bank fails to
respond to prior supervisory efforts. The guidance also states that an
enforcement action is normally appropriate if a bank’s excessive


Material Loss Review of Riverside National Bank of Florida       Page 9
(OIG-12-039)
                      growth has not been accompanied by an appropriate control
                      environment and management oversight. 11

                      The number and nature of the deficiencies that OCC identified in the
                      2005, 2006, and 2007 ROEs indicated that the quality of Riverside’s
                      management and controls had clearly not kept pace with the growth in
                      the bank’s loan portfolio. OCC included one MRA, made 20
                      recommendations, and cited one legal violation related to deficient
                      loan portfolio management in those ROEs. Although the bank
                      corrected some of the deficiencies during this time period, other
                      problems recurred, and OCC identified new deficiencies each year.

                      When we asked OCC officials about why they did not more forcefully
                      address the issues with Riverside’s loan portfolio, they said
                      (1) historically, the bank had been successful in lending in its local
                      market; (2) while OCC had given Riverside some comments regarding
                      its lending over the years, it had not identified any extraordinary risks;
                      and (3) unlike other banks in Florida which had concentrations in
                      construction, land, and acquisition and development loans, Riverside’s
                      focus was on retail lending which was considered less risky. We
                      believe, that in the case of Riverside, OCC misjudged the level of risk
                      with the institution and the OCC guidance calling for enforcement
                      action should have been followed.

                      OCC Guidance for Investment Securities Has Been Improved but Does
                      Not Quantitatively Limit Mortgage-Related Securities

                      By regulation, OCC requires that banks conduct investment activities
                      in a safe and sound manner. This regulation requires that banks
                      consider interest rate, credit, and liquidity risk, among other factors. 12
                      In addition, OCC guidance alerts banks that purchasing long-term
                      securities, like TruPS, from corporate issuers without appropriate
                      controls over interest rate, credit, and liquidity risks, is an unsafe and




11
  OCC, An Examiner’s Guide to Problem Bank Identification, Rehabilitation, and Resolution (Jan. 2001).
12
  12 C.F.R. Part 1, Investment Securities, §1.5, Safe and sound banking practices; credit information
required.

                      Material Loss Review of Riverside National Bank of Florida               Page 10
                      (OIG-12-039)
                      unsound practice. 13 However, the above regulation and guidance do
                      not limit holdings of commercial and residential mortgage-related
                      securities to a percentage of total capital and/or specific amount. At
                      the time Riverside was acquiring CDOs, the guidance directed banks
                      only to exercise reasonable efforts to bring such investments into
                      conformance in the event the ratings of such securities were
                      downgraded below the highest investment grade rating categories.

                      In 2009, OCC issued supplemental guidance that directed bankers to
                      avoid relying solely on the ratings of NRSROs in evaluating the quality
                      of a bank’s investments. 14 OCC examiners told us that additional tools
                      to stratify risk and obtain data on securities have recently been made
                      available to examiners; these resources were not available prior to
                      2008. They also commented to us that the current procedures for
                      evaluating investments would have been helpful in examining
                      Riverside’s portfolio in 2005 and 2006. While we found the
                      supplemental guidance more comprehensive than that previously
                      available to OCC examiners, it is too soon to tell whether it will be
                      effective in addressing the risks associated with investment
                      concentrations.

                      It should be noted that the former Office of Thrift Supervision (OTS)
                      did restrict thrift investments in complex securities. Specifically, it
                      directed thrifts to limit aggregate investments in TruPS and securities
                      with similar attributes to 15 percent of total capital. Thrifts that
                      wanted to invest more than 15 percent of capital in such securities
                      were required to obtain OTS approval. 15 We believe that establishing a
                      restriction on national bank investments in complex mortgage-related
                      securities like those purchased by Riverside should be considered by
                      OCC.




13
   OCC Bulletin 2002-19, Revision to FDIC Rule 12 CFR 360 (June 17, 2009). (“National banks should
demonstrate an understanding of the specific type of asset-backed security structures they plan to
purchase. Investment policies should specifically permit the holdings and establish appropriate limits.
National banks should conduct appropriate due diligence before purchasing complex asset-backed security
structures and should consider the impact of such purchases on the bank’s capital and earnings under a
variety of possible scenarios.”)
14
   OCC Bulletin 2009-15, Investment Securities (May 22, 2009).
15
   OTS Thrift Bulletin 73a, Investing in Complex Securities (Dec. 18, 2001).

                      Material Loss Review of Riverside National Bank of Florida              Page 11
                      (OIG-12-039)
Special Supervision Division’s Use of Enforcement Action and Prompt
Corrective Action Was Appropriate

OCC transferred supervision of Riverside to its Special Supervision
Division, which directed overall supervision of the bank from April
2009, until the bank’s closure in April 2010. The Special Supervision
Division took the following actions:

•   On May 7, 2009, in response to Riverside’s call report for the
    period ended March 31, 2009, disclosing that the bank’s total risk-
    based capital ratio had fallen to 7.87 percent, OCC notified
    Riverside that it was deemed undercapitalized for PCA purposes
    and directed Riverside to submit an acceptable capital restoration
    plan (CRP) by June 15, 2009. Riverside submitted a CRP on
    June 15, 2009. OCC disapproved the CRP, in part, because OCC
    was unable to determine that the CRP was realistic or likely to
    succeed in restoring Riverside’s capital.

•   On November 10, 2009, in response to Riverside’s call report for
    the period ended September 30, 2009, disclosing that the bank’s
    total risk-based capital ratio and leverage ratio had fallen to 4.45
    percent and 2.44 percent, respectively, OCC notified Riverside that
    it was deemed significantly undercapitalized for PCA purposes, and
    that the bank was under a continuing obligation to submit a timely
    and completely revised CRP. Riverside also entered into a consent
    order with OCC that contained 21 articles, 19 of which required
    action by Riverside within specified time limits.

•   Riverside’s call report for the period ended December 31, 2009,
    disclosed that Riverside’s capital ratios had improved slightly but
    Riverside remained significantly undercapitalized for PCA purposes.

•   In a letter to OCC dated March 3, 2010, Riverside’s legal counsel
    asserted that Riverside had a chance to survive or be sold without
    any loss to the DIF and pointed to improved earnings and capital
    ratios in the fourth quarter of 2009. In a response dated March 11,
    2010, OCC noted that Riverside had not raised material capital,
    obtained a merger or acquisition partner, and that the improved
    earnings and capital ratios in the fourth quarter of 2009 were the
    result of a one-time tax benefit of $24 million. Additionally, OCC



Material Loss Review of Riverside National Bank of Florida    Page 12
(OIG-12-039)
                    noted that Riverside’s earnings and capital ratios had declined in
                    2010.

                •   On April 16, 2010, OCC closed the bank and appointed the FDIC
                    as receiver.

                We concluded that the Special Supervision Division took appropriate
                actions under the circumstances to address Riverside’s problems. We
                also concluded that OCC took appropriate enforcement action and
                properly implemented PCA after the transfer of supervision in April
                2009.


Other Matters
                We noted other matters during our review pertaining to the accounting
                treatment of unrealized gains and losses and Riverside’s hindrance of
                OCC’s examination process that we believe are necessary to report.

                Regulatory Capital Treatment of Unrealized Losses on Available-for-
                Sale Debt Securities Should Be Reevaluated

                Riverside’s 2009 and 2010 call reports revealed that Riverside’s Tier 1
                capital consisted entirely or almost entirely of unrealized losses on its
                investments in securities. OCC personnel attributed this situation to a
                combination of the bank’s complex securities and the regulatory
                capital treatment of unrealized losses on available-for-sale debt
                securities. In 2009 and 2010, Riverside’s regulatory capital measures
                were substantially improved by the fact that unrealized losses on
                available-for-sale debt securities increased its regulatory capital. That
                is, though equity as determined under generally accepted accounting
                principles is formed by adding unrealized gains and subtracting
                unrealized losses, regulatory capital reverses those effects. Riverside
                reported a regulatory Tier 1 capital ratio as of March 31, 2009, of
                5.73 percent. Removing the unrealized losses from the total Tier 1
                capital on that date, we calculated that the Tier 1 capital ratio would
                have been 1.76 percent. OCC officials told us that through their
                regular supervisory assessment and monitoring of the bank’s capital
                adequacy, they were aware of the makeup of Riverside’s Tier 1 capital
                and that the size of unrealized losses was one of the reasons OCC
                moved to close the bank. An OCC official told us the bank would have


                Material Loss Review of Riverside National Bank of Florida     Page 13
                (OIG-12-039)
                        been substantially undercapitalized if the investment portfolio had
                        been sold.

                        We believe that including unrealized gains and losses in the calculation
                        of regulatory capital artificially portrays the level of Tier 1 capital and
                        potentially creates an incorrect characterization of bank soundness.
                        Accordingly, we believe that OCC should work with its regulatory
                        partners to reevaluate the regulatory capital treatment of unrealized
                        gains and losses on available-for-sale debt securities in determining
                        Tier 1 capital.

                        Riverside Hindered OCC’s Examination Process

                        OCC faced difficulty obtaining details on Riverside’s transactions with
                        affiliates. Specifically, the bank refused to provide such information,
                        stating that it was confidential. OCC officials told us it was unclear
                        whether the bank was refusing to provide information or actually
                        lacked it as a result of poor management of records and management
                        turnover. The bank’s response forced OCC to take the additional step
                        of requesting the information from the Board of Governors of the
                        Federal Reserve System, the federal regulator of the bank’s holding
                        company. OCC subsequently found that Riverside had committed
                        multiple violations of Regulation W, which governs transactions with
                        affiliates, in 2006 and 2008. 16 OCC reported these violations in the
                        2009 ROE. OCC might have discovered these violations earlier if the
                        bank had provided comprehensive, timely information on transactions
                        with affiliates when first asked by OCC examiners.

                        We also reviewed OCC documentation that showed OCC had a
                        difficult time in obtaining accurate information regarding possible
                        insider trading by Riverside’s CEO. An OCC examiner told us that
                        there are fewer requirements for private companies such as Riverside
                        to disclose stock valuation or stock price. The reduced transparency of
                        stock activity impeded OCC’s ability to assess whether insider trading
                        had occurred when Riverside’s CEO sold his stock in 2008 at
                        potentially inflated prices. Again, OCC had to obtain the information
                        they needed from the Board of Governors of the Federal Reserve
                        System.



16
     12 C.F.R. § 223, Transations Between Member Banks and Their Affiliates.

                        Material Loss Review of Riverside National Bank of Florida       Page 14
                        (OIG-12-039)
Recommendations
                      We have made a number of recommendations to OCC as a result of
                      completed material loss reviews of failed banks during the current
                      economic crisis. These recommendations include conducting a review
                      of investments by national banks for any potential high-risk
                      concentrations and taking appropriate supervisory action; 17 reviewing
                      OCC processes to ensure that more timely enforcement action is taken
                      once the need for such action is identified; 18 working with OCC’s
                      regulatory partners to determine whether to propose legislation and/or
                      change regulatory guidance to establish limits or other controls for
                      bank investments; 19 and working with OCC’s regulatory partners to
                      determine whether to propose legislation and/or change regulatory
                      guidance to establish limits or other controls for concentrations that
                      pose an unacceptable safety and soundness risk, and determining an
                      appropriate range of examiner response to high-risk concentrations. 20
                      Based on our review of the failure of Riverside, we reiterate the
                      importance of these prior recommendations.

                      As a result of our material loss review of Riverside, we are making
                      two new recommendations. Specifically, we recommend that the
                      Comptroller of the Currency:

                      1. Determine whether a limit, such as a specific percentage of capital,
                             should be placed on the amount national banks can invest in
                             complex mortgage-related securities before supervisory approval
                             must be obtained.

                             Management Response

                             OCC determined that a specific limit on complex mortgage-related
                             securities is not necessary. OCC commented that it made this
                             determination based on the existing safety and soundness rules
                             and guidance on investment securities activities and the low level
17
   Treasury OIG Safety and   Soundness: Material Loss Review of National Bank of Commerce, OIG-09-042
(Aug. 6, 2009).
18
   Treasury OIG Safety and   Soundness: Material Loss Review of Omni National Bank, OIG-10-017 (Dec. 9,
2009).
19
   Treasury OIG Safety and   Soundness: Material Loss Review of Citizens National Bank, OIG-10-038 (March
22, 2010).
20
   Treasury OIG Safety and   Soundness: Material Loss Review of Union Bank, National Association, OIG-CA-
10-009 (May 11, 2010).

                      Material Loss Review of Riverside National Bank of Florida               Page 15
                      (OIG-12-039)
                           of structured investment products currently in the national banking
                           system.

                           OIG Comment

                           We accept OCC’s determination that a specific limit on complex
                           mortgage-related securities is not necessary. However, we believe
                           OCC should periodically revisit the issue of setting specific limits on
                           complex mortgage-related securities if the level of structured
                           investment products in the national banking system rises in the
                           future.

                       2. Work with OCC’s regulatory partners to reevaluate the regulatory
                           capital treatment of unrealized losses on available-for-sale debt
                           securities in determining Tier 1 capital.

                           Management Response

                           OCC believes that reversing the effect of unrealized gains and
                           losses on regulatory capital inappropriately alters the level of Tier 1
                           capital and potentially creates an incorrect characterization of bank
                           soundness. Accordingly, OCC should work with its regulatory
                           partners to reconsider the way that unrealized gains and losses on
                           available-for-sale debt securities are incorporated into the
                           regulatory capital rules. OCC commented that this is currently
                           being considered for U.S. banks as an outgrowth of a December
                           2010 Basel Committee 21 paper, “Basel III: A global regulatory
                           framework for more resilient banks and banking systems.” That
                           paper recommends bank supervisors worldwide require unrealized
                           gains and losses to flow directly through to measures of regulatory
                           capital.




21
  Auditor Note: The Basel Committee on Banking Supervision consists of senior representatives of bank
supervisory authorities and central banks from Argentina, Australia, Belgium, Brazil, Canada, China, France,
Germany, Hong Kong SAR, India, Indonesia, Italy, Japan, Korea, Luxembourg, Mexico, the Netherlands,
Russia, Saudi Arabia, Singapore, South Africa, Spain, Sweden, Switzerland, Turkey, the United Kingdom
and the United States. It usually meets at the Bank for International Settlements in Basel, Switzerland,
where its permanent Secretariat is located.

                       Material Loss Review of Riverside National Bank of Florida                Page 16
                       (OIG-12-039)
    OIG Comment

    Management’s proposed action is responsive to the OIG’s
    recommendation. OCC will need to record its planned completion
    date for taking corrective action in JAMES.

                              * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may contact
me at (202) 927-0384. Major contributors to this report are listed in
appendix 4.



Jeffrey Dye /s/
Audit Director




Material Loss Review of Riverside National Bank of Florida    Page 17
(OIG-12-039)
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of Riverside National Bank
                        of Florida (Riverside), of Fort Pierce, Florida, in response to our
                        mandate under section 38(k) of the Federal Deposit Insurance
                        Act. 22 This section provides that if the Deposit Insurance Fund
                        (DIF) incurs a material loss with respect to an insured depository
                        institution, the inspector general for the appropriate federal banking
                        agency is to prepare a report to the agency that

                        •    ascertains why the institution’s problems resulted in a material
                             loss to the DIF;

                        •    reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action provisions of
                             section 38; and

                        •    makes recommendations for preventing any such loss in the
                             future.

                        At the time of Riverside’s failure, section 38(k) defined a loss as
                        material if it exceeded the greater of $25 million or 2 percent of
                        the institution’s total assets. We initiated a material loss review of
                        Riverside based on the loss estimate by the Federal Deposit
                        Insurance Corporation (FDIC). As of December 31, 2011, FDIC
                        estimated that the loss to the DIF from Riverside’s failure would be
                        $240.9 million. FDIC also estimated that Riverside’s failure resulted
                        in a loss of $8.3 million to FDIC’s Transaction Account Guarantee
                        Program.

                        Our objectives were to determine the causes of Riverside’s failure
                        and associated impact to the DIF; assess the Office of the
                        Comptroller of the Currency’s (OCC) supervision of Riverside,
                        including implementation of the prompt corrective action provisions
                        of section 38; and make recommendations for preventing such a
                        loss in the future. To accomplish our objectives, we conducted
                        fieldwork at OCC’s headquarters in Washington, DC, and OCC’s
                        field office in Miami, Florida. We also interviewed personnel from
                        OCC’s district office in Dallas, Texas; FDIC’s Division of
                        Resolutions and Receiverships at Riverside’s former headquarters in
                        Fort Pierce, Florida; and FDIC’s Division of Supervision and


22
     12 U.S.C. § 1831o(k).

                        Material Loss Review of Riverside National Bank of Florida       Page 18
                        (OIG-12-039)
Appendix 1
Objectives, Scope, and Methodology




Consumer Protection in both Broward County, Florida, and Atlanta,
Georgia. We conducted our fieldwork primarily from June 2010
through October 2010.

To assess the adequacy of OCC’s supervision of Riverside, we
determined (1) when OCC first identified Riverside’s safety and
soundness problems, (2) the gravity of the problems, and (3) the
supervisory response OCC took to get the bank to correct the
problems. We also assessed whether OCC (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

•   We determined that the time period relating to OCC’s
    supervision of Riverside covered by our audit would be from
    January 2005 through Riverside’s failure on April 16, 2010.
    This period included five full-scope safety and soundness
    examinations and three targeted safety and soundness
    examinations. We analyzed examination reports, supporting
    workpapers, and related supervisory and enforcement
    correspondence. We performed these analyses to gain an
    understanding of the problems identified, the approach and
    methodology OCC used to assess the bank’s condition, and the
    regulatory action OCC used to compel bank management to
    address deficient conditions identified during examinations. We
    did not conduct an independent or separate detailed review of
    the external auditor’s work or associated workpapers other than
    those incidentally available through the supervisory files.

•   We interviewed and discussed various aspects of Riverside’s
    supervision with OCC officials, examiners, and an attorney to
    obtain their perspective on the bank’s condition and the scope
    of the examinations.

•   We interviewed FDIC officials responsible for monitoring
    Riverside for federal deposit insurance purposes.

•   We reviewed reports of examination prepared by the Federal
    Reserve Bank of Atlanta for Riverside’s holding company, to



Material Loss Review of Riverside National Bank of Florida     Page 19
(OIG-12-039)
                        Appendix 1
                        Objectives, Scope, and Methodology




                            gain an understanding of its assessment of the holding
                            company’s condition.

                        •   We interviewed officials from FDIC’s Division of Supervision and
                            Consumer Protection who were involved in the supervision and
                            closing of Riverside.

                        •   We reviewed Riverside documents inventoried by FDIC upon
                            closing the bank that were relevant to bank’s failure and OCC’s
                            supervision of the institution.

                        •   We assessed OCC’s actions based on its internal guidance and
                            requirements of the Federal Deposit Insurance Act. 23

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to provide a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives.




23
     12 U.S.C. § 1811 et seq.

                        Material Loss Review of Riverside National Bank of Florida    Page 20
                        (OIG-12-039)
Appendix 2
Background




History of Riverside National Bank

Riverside National Bank of Florida (Riverside) of Fort Pierce, Florida,
was chartered as a commercial bank in 1982. The Office of the
Comptroller of the Currency (OCC) was Riverside’s primary
regulator from the bank’s inception. Riverside focused its
operations in St. Lucie County, which is in a region of Florida
known as the Treasure Coast. Riverside’s main office was in Fort
Pierce, and the bank had approximately 60 branches in 10 counties
in Florida and held nearly 30 percent of all deposits in the Treasure
Coast region. At its peak in 2007, Riverside employed over 1,000
employees and held more than $4.8 billion in assets. By March
2010, near the bank’s failure date, Riverside’s assets had declined
to approximately $3.4 billion.

Riverside was a private company wholly owned by Riverside
Banking Company, a one-bank holding company. The holding
company was part of a chain banking structure, in which a small
number of individuals controlled several independently chartered
banks, each of which had its own holding company.

Before 2008, Riverside pursued an aggressive investment strategy
uncommon to community banks, accumulating a substantial
volume of high-risk, complex securities related to retail mortgages.
By September 2008, Riverside’s investments represented 29
percent of the bank’s total assets, nearly double the size of the
investment portfolios of Riverside’s peer banks. In addition, the
composition of Riverside’s loan portfolio was unusual. Unlike many
banks in Florida, Riverside was not highly concentrated in
commercial real estate lending, but instead had an unusually large
retail lending portfolio. Riverside focused on lending within the local
market, which was primarily dependent on the real estate industry.

OCC Assessments Paid by Riverside

OCC funds its operations in part through semiannual assessments
on national banks. OCC publishes annual fee schedules, which
include general assessments to be paid by each institution based
on the institution’s total assets. If the institution is a problem bank
(i.e., it has a CAMELS composite rating of 3, 4, or 5), OCC also
applies a surcharge to the institution’s assessment to cover

Material Loss Review of Riverside National Bank of Florida       Page 21
(OIG-12-039)
Appendix 2
Background




additional supervisory costs. These surcharges are calculated by
multiplying the sum of the general assessment by 50 percent for
3-rated institutions or by 100 percent for 4- and 5-rated
institutions. Table 1 shows the assessments that Riverside paid to
OCC from 2005 through 2010.

Table 1: Assessments Paid by Riverside to OCC, 2005–2010
                                                                   % of Total
       Billing Period            Exam Rating         Amount Paid   Collection
1/1/2005–6/30/2005                    2                 $212,220      0.07%
7/1/2005–12/31/2005                   2                  242,256      0.08%
1/1/2006–6/30/2006                    2                  282,497      0.09%
7/1/2006–12/31/2006                   2                  319,660      0.10%
1/1/2007–6/30/2007                    2                  371,250      0.11%
7/1/2007–12/31/2007                   2                  390,006      0.11%
1/1/2008–6/30/2008                    3                  380,576      0.11%
7/1/2008–12/31/2008                   3                  351,315      0.10%
1/1/2009–6/30/2009                   4&5                 495,185      0.13%
7/1/2009–12/31/2009                   5                  590,400      0.16%
1/1/2010–6/30/2010                    5                  588,466      0.15%
Source: OCC.


Number of OCC Staff Hours Spent Examining Riverside

Table 2 shows the number of OCC staff hours spent examining
Riverside from 2005 to 2010.

Table 2: Number of OCC Hours Spent on Examining Riverside, 2005-2010
                                       Number of
 Examination Start Date        Examination Hours
9/22/2005                                2,461
9/15/2006                                2,689
7/3/2007                                 4,272
9/2/2008                                 5,793
9/14/2009                                1,566
 Source: OCC Examiner View.
Note: Hours are totaled for safety and soundness examinations,
information technology examinations, and compliance
examinations and do not include time spent performing off-site
monitoring.




Material Loss Review of Riverside National Bank of Florida              Page 22
(OIG-12-039)
Appendix 3
Management Response




Material Loss Review of Riverside National Bank of Florida   Page 23
(OIG-12-039)
Appendix 3
Management Response




Material Loss Review of Riverside National Bank of Florida   Page 24
(OIG-12-039)
Appendix 4
Major Contributors to This Report




Rashmi Bartlett, Audit Manager
Bobbi A. Paulson, Auditor-in-Charge
April A. Ellison, Auditor
Maria M. McLean, Auditor
Katherine E. Johnson, Referencer




Material Loss Review of Riverside National Bank of Florida   Page 25
(OIG-12-039)
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

U.S. Senate

    Chairman and Ranking Member,
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member,
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member,
    Committee on Financial Services

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of Riverside National Bank of Florida     Page 26
(OIG-12-039)
